               estimony

                          STATEMENT OF
                       ROBERT J. LIEBERMAN
                    DEPUTY INSPECTOR GENERAL
                     DEPARTMENT OF DEFENSE
                           BEFORE THE
                  SENATE COMMITTEE ON BUDGET
                                ON
                   DEFENSE MANAGEMENT ISSUES



Report No. D-2001-050        DELIVERED: February 12, 2001



                Office of the Inspector General
                    Department of Defense
Mr. Chairman and Members of the Committee:



I am pleased to be here this afternoon to discuss the management

challenges facing the Department of Defense, from the standpoint

of its internal auditors and investigators.                                   My testimony will

summarize and update the written analysis that we provided to

you and other congressional leaders last December 1.* In that

analysis, we identified 10 areas, each containing multiple

significant challenges.



Information Technology Management

The other witnesses before you today have written eloquently on

the Revolution in Military Affairs brought on by rapidly

advancing technologies related to computing, communications and

sensors.         It is equally true that information systems are now as

crucial to DoD management activities as the central nervous

system is to the human body.                        Managers at all levels, regardless

of their functions, depend on information that is compiled,

analyzed, adjusted and reported with automated systems.                                            During

the Year 2000 computer conversion project, approximately 10,000

DoD computer networks were inventoried and the true extent of




*
 The letters of December 1, 2000 and the last several Inspector General Semiannual Reports to the Congress, which
contain similar analyses of high risk areas, are available on-line at www.dodig.osd.mil.
                                                                      2


the Department's dependence on those systems became well

understood for the first time.     The magnitude of DoD spending on

information technology is less well understood, but clearly it

far exceeds $20 billion annually.



Given the considerable dependence on "IT" and the high cost of

large system investments, the historically poor record of the

DoD for controlling the proliferation of incompatible systems

with nonstandard data elements, acquiring new systems that meet

user needs within reasonable timeframes, controlling cost, and

ensuring the quality and security of data has been a major

concern.     Recognizing that such problems are common across the

Federal Government, the Congress specified in the Clinger-Cohen

Act of 1996 that Chief Information Officers in each agency would

oversee well disciplined information technology acquisition

processes.     This is a daunting challenge for a department with

71 major information system acquisition projects and hundreds of

"smaller" system acquisition and modification projects belonging

to dozens of organizations.     The DoD has been candid about the

need for more effective management controls in this crucial

area, but progress has been slow and the goals of the Clinger-

Cohen Act have not yet been achieved.
                                                                   3


I have mentioned the challenge of information system investments

first because information problems are at the root of a very

large number of DoD management problems, ranging from the

inability to compile accurate financial reports to poor supply

inventory management practices.



The Department has revised its basic information system

acquisition procedures and been responsive to our

recommendations.   Nevertheless, we believe this area deserves

heavy oversight emphasis as it continues to evolve.   At the

present time, virtually every information technology project

that we audit exhibits significant management problems.   The

most common failing is poorly defined requirements for the

system.



Information System Security

Another facet of information technology management is assuring

the security of DoD systems and information.   Guarding against

the interception of military signals is an age-old problem and,

until recently, was chiefly the province of the cryptographers.

Although the DoD must always maintain tight security for its

classified systems, the past few years have seen the massive

expansion of networked and unclassified DoD information systems.
                                                                    4


In turn, this expanded DoD presence on the Internet has led to a

proliferation of attacks and intrusions.



Network intrusion poses a multifaceted threat to national

security that cuts across society's boundaries:   it potentially

affects both the public and private sectors, cuts across

national boundaries, and can cause problems in virtually all

economic sectors and levels of government.   To organizations,

the threat is both internal and external, and constantly

evolves.   Perpetrators can include disgruntled or irresponsible

employees, criminals, hobbyist hackers, agents of hostile states

and terrorists.



Recent audits indicate that much more needs to be done to

implement the Defense Information Assurance Program fully and to

sustain a robust effort indefinitely, as 21st Century realities

will demand.   Although it was widely assumed that the successful

management approaches and mechanisms developed to overcome the

"Y2K" problem would be readily transferable to the information

assurance challenge, this has occurred to a very limited extent.

The strongest part of the DoD effort currently is in the areas

of intrusion detection and incident response.   Several Defense

Criminal Investigative Service agents, from my office, are an

integral component of the Joint Task Force on Computer Network
                                                                   5


Defense, which gives DoD a powerful capability and is an

excellent example of cooperation between the DoD information

security and Federal law enforcement communities.   Consistent

policies, procedures, training and assessments in DoD computing

centers and among system users remain weaker areas.   In that

regard, the Government Information Security Reform provisions of

the National Defense Authorization Act for Fiscal Year 2001,

which mandate annual information assurance assessments and IG

validation audits in Federal agencies, should be very helpful in

terms of focusing management attention on this problem area.



Other Security Concerns

In addition to the threat posed by unauthorized intrusion into

DoD information systems, a wide range of other security issues

confront the DoD.   Those threats include terrorism against U.S.

personnel and facilities, conducted by either conventional or

non-conventional means, and the disclosure or theft of sensitive

military technology.   The recent terrorist attack on the

USS COLE in Yemen and security breaches at the Department of

Energy, the Central Intelligence Agency and DoD graphically

demonstrated that security vulnerabilities need to be matters of

utmost concern.
                                                                      6


Recent audits have indicated that the DoD needs to improve

security measures to guard against both internal and external

threats.     We have not audited force protection issues, but we

have extensively reviewed a number of other areas where

unacceptable vulnerability exists.     These include the Defense

Personnel Security Program, which by 1998 had allowed hundreds

of thousands of overdue security clearance requests to

accumulate.     The Department took aggressive measures during 2000

to address productivity and resource problems at the Defense

Security Service (DSS), with mixed success to date.     In April

2000, the DSS estimated that it would reduce the number of

pending cases to about 260,000 by now.     As of January 31, 2001,

however, there were 442,643 cases pending in DSS and 45,128 more

pending at the Office of Personnel Management.     It likely will

take at least two years to achieve reasonable average turnaround

times for security clearance investigations and further

attention to the clearance adjudication process also is

warranted.



Similarly, there is a consensus in the Executive Branch and

Congress that the export license regime of the 1990's was

inefficient and probably ineffective in controlling the

unintended loss of U.S. military technology.     During 2000, the

DoD worked with other Federal agencies to streamline the
                                                                     7


licensing processes and approved additional resources to improve

the speed and value of license application reviews.    The task of

determining to what extent the fundamental national export

control policies need to change, however, remains unfinished

business for the new Administration and Congress.



It is important to view security as a paramount consideration

for virtually all DoD programs and operations.    Issues such as

properly demilitarizing military equipment before disposal and

controlling the access of contractors and visitors to technical

information at military engineering organizations and

laboratories need more attention.   We are monitoring DoD

implementation of numerous agreed-upon audit recommendations on

these matters.



Financial Management

The DoD remains unable to comply with the requirements in the

Chief Financial Officers Act of 1990 and related legislation for

auditable annual financial statements.   The results of audits of

the DoD-wide and other major financial statements for FY 1999

were essentially the same as in previous years.    The Military

Retirement Fund statements received a clean audit opinion, but

all other DoD financial statements were unauditable.    We have

not yet issued the audit opinions on the financial statements
                                                                      8


for FY 2000, but there will be no significant change in those

bleak outcomes.     Previous DoD goals for obtaining clean opinions

on all or most annual statements during the FY 2000 timeframe

were unrealistic and it is unclear what a realistic goal would

be at this point.    A few relatively small DoD organizations and

funds may achieve favorable opinions in the near future, but the

major funds still pose a formidable challenge.    The root problem

is that DOD lacks modern, integrated information systems that

can compile auditable financial statements.    The Department also

has major concerns that the Federal Accounting Standards

Advisory Board could issue additional guidance that would

further complicate this challenge.



During the past year, the DoD made hopeful progress in

addressing major impediments to favorable audit opinions.    These

problems cannot be solved quickly and some could not be

addressed until new Federal accounting standards were issued and

interpreted, which is still an incomplete process and is not

controlled by DoD.    Policies were issued to implement several

new accounting standards and more contractors were engaged to

provide their expertise on a variety of issues, such as

determining the value of different categories of property.
                                                                    9


Most importantly, the Department took steps to apply the lessons

learned from the successful DoD Y2K conversion program to the

financial system compliance effort.   The DoD Senior Financial

Management Council, which had not met for several years, was

reconstituted to ensure senior management control.   A

comprehensive program management plan was issued on January 5,

2001.



We strongly recommended this initiative.   Indeed, I believe it

is the most heartening development in this area in several

years.   I urge the new Administration and Congress to support

this adaptation of the successful Y2K management approach to the

somewhat similar information systems challenge involved in

attaining CFO Act compliance.



One of the benefits of using the Y2K management approach for

financial systems compliance is that it provides good metrics

for the most important aspect of the DoD financial management

improvement effort.   As welcome as those metrics will be for

measuring system compliance status, however, even they will not

measure the usefulness of the data to managers, appropriators or

budget committees.    Numerous recent statements and testimony to

Congress by the Office of Management and Budget, GAO and DoD

officials have stressed that the ultimate goal of financial
                                                                    10


management reform legislation is ensuring useful financial

information for sound decision-making by managers throughout the

year, not merely clean audit opinions on annual financial

statements.   We agree.   Audit opinions are a simple and readily

understandable metric, but judging the usefulness of financial

information is far more difficult.   Likewise, audit opinions on

financial statements provide little insight into the efficiency

of functions such as paying contractors or capturing the cost of

operations of individual bases and work units.   The DoD has

long-standing deficiencies in both of those areas.



Acquisition

The DoD is working toward the goal of becoming a world-class

buyer of best value goods and services from a globally

competitive industrial base.   The Department hopes to achieve

this transformation through rapid insertion of commercial

practices and technology, business process improvement, creating

a workforce that is continuously retrained to operate in new

environments, and heavily emphasizing faster delivery of

material and services to users.   In order to fulfill these

objectives, the DoD has initiated an unprecedented number of

major improvement efforts, including at least 40 significant

acquisition reform initiatives.
                                                                    11


Despite some successes and continued promises from ongoing

reforms, the business of creating and sustaining the world's

most powerful military force remains expensive and vulnerable to

fraud, waste and mismanagement.     In FY 2000, the DoD bought

about $156 billion in goods and services, with 15 million

purchasing actions.     The Department currently is attempting to

stretch its acquisition budgets across 71 major programs,

estimated to cost $782 billion, and 1,223 smaller programs worth

$632 billion.



The scope, complexity, variety and frequent instability of

Defense acquisition programs pose particularly daunting

management challenges.     Aggressive acquisition cost reduction

goals have been established, but it is too soon to tell if they

are achievable.   Many specific initiatives have not yet been

fully implemented and are in a developmental or pilot

demonstration phase.



In the push to streamline procedures and incorporate commercial

practices and products, the Department cannot compromise its

insistence on quality products and services at fair and

reasonable prices.     An inherent challenge throughout the

Department's acquisition reform effort is ensuring that

critically needed controls remain in place and there is proper
                                                                  12


oversight and feedback on new processes.   Recent audits

continued to indicate a lack of effective means for identifying

best commercial practices and adapting them to the public

sector; overpricing of spare parts; inattention to good business

practices and regulations when purchasing services; poor

oversight of the several hundred medium and small acquisition

programs; and adverse consequences from cutting the acquisition

workforce in half without a proportional decrease in workload.



Although the DoD must continue to address the challenges of how

to control the cost of purchased goods and services, the most

fundamental acquisition issues confronting the Department relate

to requirements and funding.   The expanding national dialogue on

military missions, the Quadrennial Defense Review and actions by

the new Administration and Congress will probably alter DoD

missions, military force structure and acquisition requirements.

Whether changes in requirements and the topline budget are major

or minor, there needs to be a far-reaching rebalancing of

acquisition programs to match available funding.



Finally, we believe that the Department needs to put more

acquisition reform emphasis on ensuring the quality,

serviceability and safety of purchased equipment, parts and

supplies.   Concentrating on prices and timely delivery is vital,
                                                                  13


but quality should be the most important attribute for DoD

purchases, especially for materiel used by the warfighters.

Minimizing vulnerability to fraud, especially false statements

regarding product testing and product substitution, remains

imperative.   We currently have nearly 700 open procurement fraud

investigations and we achieved 134 convictions, with recoveries

of $170 million, in this area during FY 2000.



Health Care

The Military Health System (MHS) costs over $20 billion annually

and serves approximately 8.2 million eligible beneficiaries

through its health care delivery program TRICARE.    TRICARE

provides health care through a combination of direct care at

Military Department hospitals and clinics and purchased care

through managed care support contracts.   The MHS has dual

missions to support wartime deployments (readiness) and provide

health care during peacetime.



The MHS faces three major challenges:   cost containment,

transitioning to managed care, and data integrity.    These

challenges are complicated by the inadequate information systems

available to support the MHS.
                                                                     14


Cost containment within the MHS is challenged by the continued

lack of good cost information and significant levels of health

care fraud.     Lack of comprehensive patient-level cost data has

made decisions on whether to purchase health care or provide the

care at the military treatment facility more difficult.     Recent

legislation, which expands medical benefits for eligible

beneficiaries, will entail considerable program growth in an

area where cost control has been difficult.



To combat health care fraud, the Defense Criminal Investigative

Service has developed an active partnership with the TRICARE

Management Activity to give high priority to health care fraud

cases, which comprise a growing portion of the overall

investigative workload.     We have about 500 open criminal cases

in this area.    In FY 2000, our investigations led to 94

convictions and $529 million in recoveries.



Supply Inventory Management

Supply management to support U.S. military forces, which are

located around the world and use several million different types

of weapon systems, other equipment, spare parts, fuel, apparel,

food items, pharmaceuticals and other supplies, may be the most

difficult logistics challenge in the world.     Despite the clear

need to modernize DoD supply operations, it should be noted that
                                                                    15


U.S. military logistics performance has been excellent in

demanding situations such as recent deployments to comparatively

remote areas of the world.



Every facet of supply management involves challenges and it is

critically important to recognize that weapon systems and other

equipment must be designed, selected and procured with logistics

support as a paramount concern.   The use of standardized parts,

commercial items, non-hazardous materials and easy to maintain

components will considerably ease the supply support problem for

each system or piece of equipment.   Conversely, inattention to

such factors during acquisition will increase the risk of higher

costs and logistics failures.



The logistics community relies heavily on program managers and

operators to help forecast supply requirements, and historically

this has been very difficult.   The Department has been

justifiably criticized for accumulating excessive supply

inventories, but supply shortfalls are at least as great a

concern due to the impact on readiness.   Current logistics

reform initiatives are principally focused on introducing

private sector logistics support practices, which in turn are

based on applied web-based technology.    The DoD has initiated a

myriad of logistics improvement initiatives, most of which are
                                                                    16


still in early stages.    We anticipate continuing valid concerns

about all phases of supply support, including requirements

determination, procurement, distribution, and disposal.



Other Infrastructure Issues

Despite numerous management initiatives to reduce support costs

so that more funds could be applied to recapitalizing and

ensuring the readiness of military forces, more can and should

be done.    Organizations throughout the Department need to

continue reengineering their business processes and striving for

greater administrative efficiency.



Unfortunately, cutting support costs can easily become

counterproductive if the quality of support services and

facilities is degraded.    In addition, there are numerous bona

fide requirements in the support area that will be expensive to

address.    For example, the average age of structures on military

installations is 41 years and wholesale recapitalization is

needed.    In the category of family housing alone, a third of the

285,000 units require replacement in the next several years.

The backlog of real property maintenance is $27.2 billion.



Three areas hold the most promise for reducing installation

level costs:    base closures, public/private competition for
                                                                  17


activities like base maintenance, and measures to avoid

hazardous material handling and cleanup costs through better up-

front planning.   Unfortunately, progress in all three areas is

difficult because of controversy about the validity of data used

by decision-makers or their objectivity.



Readiness

Concern about the readiness of U.S. military forces was a

principal issue last year in congressional hearings and was

addressed during the Presidential election campaign.    There is a

fairly broad consensus that readiness shortfalls exist, although

the extent of impairment to mission capability is more

contentious.   Clearly, there are spare parts shortages;

significant backlogs for depot maintenance ($1.2 billion);

concerns related to recruiting, retention and morale;

disproportionately numerous deployments for some units;

unanticipatedly high operating tempo; and equipment availability

problems.   In response, the DoD and Congress have made major

budget adjustments and military entitlements have been expanded.

The Department's readiness posture ultimately depends, however,

on the effectiveness of hundreds of support programs, which

range from training to supply management.
                                                                   18


The DoD audit community supported the successful program to

overcome the Year 2000 computer challenge, which the Department

considered to be a major readiness issue, with the largest audit

effort in DoD history.   The IG, DoD, issued 185 "Y2K" reports.

Due to that massive commitment, resource constraints and other

workload, our recent coverage of other readiness issues was

severely limited.   We plan to restore at least some of the

necessary coverage during FY 2001, continuing our particular

concentration on chemical and biological defense matters.     On

January 31, for example, we issued a report on the establishment

of National Guard Weapons of Mass Destruction-Civil Support

Teams.   The audit indicated they were not yet ready for

certification as mission-ready.   We are working with the

involved DoD organizations to ensure that the concerns related

to those certifications are expeditiously and fully addressed.



Human Capital

Like most government organizations, DoD faces a range of serious

personnel management issues.   The deep cuts in both the military

force structure and the civilian workforce after the end of the

Cold War were not accompanied by proportionate reductions in

military force deployments or in civilian workload.   On the

contrary, military operations tempo has been very high and there

have been indications of morale problems among both military and
                                                                  19


civilian personnel.   Among the negative effects of downsizing

are increased retention problems because of slow promotions and

overworked staffs, recruiting problems and skills imbalances.



Human capital concerns apply in virtually all segments of the

workforce.   Our February 2000 report on the impact of cutting

the DoD acquisition workforce in half was received with

considerable interest by both the DoD and Congress.   The Federal

Chief Information Officers Council has been pushing vigorously

for attention to problems in the information technology

workforce.   The Secretary of Defense Annual Report to the

President and the Congress for 2001 includes the following

analysis of the DoD Test and Evaluation (T&E) community:



     "Since 1990, the T&E business area has reduced government

personnel by more than 40 percent, and T&E institutional budgets

by 30 percent.   Over this same period, developmental test and

evaluation workload has remained essentially stable, and

operational test and evaluation workload has significantly

increased.   As a result, T&E is not sufficiently funded or

manned to effectively and efficiently address the test and

evaluation challenges of the next decade.   To be responsive to

the philosophy of early use of T&E for discovery of military

effectiveness and suitability issues, T&E personnel will be
                                                                  20


overextended.   While the principles of the faster, better,

cheaper acquisition reform philosophy are sound, the

implementation which has stretched the resources of T&E has also

resulted in a rush-to-failure mode for some acquisition

programs."



In addition to rethinking what size workforce is needed to meet

mission requirements, as opposed to cutting mission capability

to meet personnel reduction goals, the DoD needs to develop more

effective training methods to enable continuous learning to keep

abreast of emerging technology and changing management

practices.   It also must find ways to compensate for the pending

retirement of a large portion of the experienced workforce,

improve competitiveness with private industry, and develop

better incentives for productivity improvement.



The recent initiatives on improving military pay and benefits,

the development of a pilot personnel management reform program

for acquisition personnel, and other new initiatives indicate

that human capital issues are now in the forefront of management

concerns.
                                                                  21


Summary

This has been a broad brush treatment of a large and complicated

picture.   In closing, I would like to emphasize that, on the

whole, DoD managers react positively and do their best to take

responsive action on the many problems identified for them by my

office, the GAO and other oversight organizations.   I am proud

of the Department's record of agreeing to take responsive action

on 96 percent of the over 3,000 recommendations made in

Inspector General, DoD, reports during the past three years.

The fact that serious problems persist generally is attributable

to their inherent difficulty or to conflicting priorities,

rather than indifference toward the best interest of the

Department and the taxpayer.



This concludes my written statement.
